<html>
<title> - A FRESH LOOK AT MANDATORY RETIREMENTS: DO THEY STILL MAKE SENSE?</title>
<body><pre>[Senate Hearing 108-733]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-733

                 A FRESH LOOK AT MANDATORY RETIREMENTS:
                       DO THEY STILL MAKE SENSE?

=======================================================================

                                HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             WASHINGTON, DC

                               __________

                           SEPTEMBER 14, 2004

                               __________

                           Serial No. 108-42

         Printed for the use of the Special Committee on Aging



                   U.S. GOVERNMENT PRINTING OFFICE
97-085 PDF              WASHINGTON : 2004
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001



                       SPECIAL COMMITTEE ON AGING

                      LARRY CRAIG, Idaho, Chairman
RICHARD SHELBY, Alabama              JOHN B. BREAUX, Louisiana, Ranking 
SUSAN COLLINS, Maine                     Member
MIKE ENZI, Wyoming                   HARRY REID, Nevada
GORDON SMITH, Oregon                 HERB KOHL, Wisconsin
JAMES M. TALENT, Missouri            JAMES M. JEFFORDS, Vermont
PETER G. FITZGERALD, Illinois        RUSSELL D. FEINGOLD, Wisconsin
ORRIN G. HATCH, Utah                 RON WYDEN, Oregon
ELIZABETH DOLE, North Carolina       BLANCHE L. LINCOLN, Arkansas
TED STEVENS, Alaska                  EVAN BAYH, Indiana
RICK SANTORUM, Pennsylvania          THOMAS R. CARPER, Delaware
                                     DEBBIE STABENOW, Michigan
                      Lupe Wissel, Staff Director
             Michelle Easton, Ranking Member Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Larry Craig.........................     1

                                Panel I

Abby L. Block, deputy associate director, Center for Employee and 
  family Support Policy, U.S. Office of Personnel Management, 
  Washington, DC.................................................     2
Eugene R. Freedman, policy counsel, National Air Traffic 
  Controllers Association, Washington, DC........................    11
Russell B. Rayman, M.D., executive director, Aerospace Medical 
  Association, Alexandria, VA....................................    31
Captain Joseph Eichelkraut, president, Southwest Airlines Pilots' 
  Association, Dallas, TX........................................    36
Jagadeesh Gokhale, senior fellow, CATO Institute.................    42

                                Appendix

Prepared statement of Senator Elizabeth Dole.....................    67
Statement submitted by U.S. Congressman Jim Gibbons..............    68
Testimony submitted by Captain Michael Oksner, Southwest 
  Airlines, Retired..............................................    70
Letter submitted by Fraternal Order of Police....................    74
Written statement submitted by Airline Pilots Against Age 
  Discrimination.................................................    77
Statement of Captain Ralph Hunter, president, Allied Pilots 
  Association....................................................    83

                                 (iii)

  

 
    A FRESH LOOK AT MANDATORY RETIREMENTS: DO THEY STILL MAKE SENSE?

                              ------------



                      TUESDAY, SEPTEMBER 14, 2004

                                       U.S. Senate,
                                Special Committee on Aging,
                                                    Washington, DC.
    The committee convened, pursuant to notice, at 10 a.m., in 
room SD-628, Dirksen Senate Office Building, Hon. Larry Craig 
(chairman of the committee) presiding.
    Present: Senators Craig and Carper.

       OPENING STATEMENT OF SENATOR LARRY CRAIG, CHAIRMAN

    The Chairman. Good morning and welcome to the Senate 
Special Committee on Aging. Today's hearing will reexamine 
mandatory retirement age rules in an issue of growing concern 
for employers and workers across the nation.
    Federal, State, and local governments have mandatory 
retirement rules for public safety-related jobs with physical 
and cognitive fitness requirements. Public safety is clearly 
the most important policy consideration in evaluating mandatory 
retirement rules. But those of us who study this issue know 
there has been a dynamic increase in longevity and a trend 
toward healthy aging over the past half-century. Americans are 
living longer and healthier than ever before. As a result, 
chronological age is less often an indicator of physical and 
cognitive age for many workers.
    In six short years, the U.S. Bureau of Labor Statistics 
projects a shortfall of ten million workers in the United 
States due to an aging workforce. Much of the shortfall will be 
among skilled workers, such as those covered by mandatory 
retirement rules. For example, it is reported that nearly half 
of the nation's air traffic controllers will reach the 
mandatory age of 56 in the next decade. In order to prepare for 
the future, it is important that lawmakers understand the 
impact of changing demographics on our workforce.
    Mandatory retirement age rules seem outdated to many 
experts, and that is why we are here today, to examine specific 
professions that are subject to Federal mandatory retirement 
rules. Today's hearing will focus on mandatory retirement rules 
with a Federal Government nexus. We will be looking at Federal 
law enforcement, correction officers, fire fighters, air 
traffic controllers, and commercial airline pilots. Our goal is 
to better understand the dynamics of each profession and 
whether 20th century mandatory retirement age rules still make 
sense in the 21st century.
    With that, let me say how pleased I am that all of our 
distinguished witnesses are with us today. Abby Block will be 
our lead witness, deputy associate director for the U.S. Office 
of Personnel Management; Eugene Freedman, policy counsel for 
the National Association of Air Traffic Controllers; Russell 
Rayman, executive director of Aerospace Medical Association; 
Captain Eichelkraut, president of Southwest Airlines Pilots' 
Association; and Jagadeesh Gokhale, senior fellow at the CATO 
Institute.
    I must tell you all before we start something that happened 
to me just a few moments ago as I was leaving my office. Every 
Tuesday morning, I have a constituency coffee in the office and 
folks who are here from Idaho visiting stop by to say hello and 
we shoot some pictures and have a cup of coffee.
    There were two couples from Huddleston, ID. That is between 
Twin Falls and the Nevada border line of Jackpot, NV, down in 
South Central Idaho. A couple had brought their son and 
daughter-in-law to the capital city for the first time. This 
gentleman, as I was leaving, said, ``Where are you going?'' I 
said, ``Well, I am going to chair a hearing'' on--and I began 
to laugh as I was looking at him, or smile, and say, mandatory 
retirement with the Special Committee on Aging.'' He said, ``Oh 
really?'' He said, ``I am 93,'' and still working his ranch in 
South Idaho, and he had brought his son and daughter to 
Washington for the first time and his son is 62. [Laughter.]
    So I was thinking about that on the way down and thought, 
well, yes, different professions, different jobs, different 
realities. But here was a 93-year-old man who finally figured 
he had got enough money saved up he could take time away from 
the ranch to visit his nation's capital and he would bring his 
son along with him. Isn't it great to be an American?
    With that, Abby, we will start with you and your testimony. 
Again, thank you for being with us this morning and please pull 
that mike as close as possible.

 STATEMENT OF ABBY L. BLOCK, DEPUTY ASSOCIATE DIRECTOR, CENTER 
    FOR EMPLOYEE AND FAMILY SUPPORT POLICY, U.S. OFFICE OF 
              PERSONNEL MANAGEMENT, WASHINGTON, DC

    Ms. Block. Thank you, Mr. Chairman. I am pleased to be here 
today on behalf of the director of the Office of Personnel 
Management, Kay Coles James, to discuss the issue of mandatory 
retirement age rules, is it time to reevaluate?
    As I am sure you are aware, OPM administers the two largest 
retirement systems for Federal employees. They are the Civil 
Service Retirement System, also known as CSRS, and the Federal 
Employees Retirement System, also known as FERS. CSRS, which 
dates from 1920, is now a closed system that still covers about 
a third of Federal employees. FERS was established in 1986 and 
covers the majority of Federal employees. Before discussing the 
current provisions of those systems relating to mandatory 
retirement, I would like to take a few minutes to explain a 
little of the history behind those provisions.
    While we have come a long way in terms of applicability, 
mandatory retirement age has been a factor in Federal 
retirement systems since the very beginning. The original Civil 
Service Retirement Act of 1920 established three automatic 
retirement ages, 62, 65, or 70, classified according to the 
type of position. Sixty-two was the age set for railway postal 
clerks. Sixty-five was set for mechanics, city and rural letter 
carriers, and post office clerks, while age 70 was applicable 
to all other employees. Separation was mandatory at those ages, 
even if the individual did not have the 15 years of service 
required for an annuity. Renewable 2-year extensions were 
permitted based upon certification by the agency head and Civil 
Service Commission approval. There were no provisions for 
retirement at any other time other than based upon disability.
    For a number of years thereafter, these provisions were 
subject only to rather minor modifications from time to time. 
In 1926, the occupational group composition subject to 
retirement at the various ages were changed and automatic 
separations were deferred until individuals completed enough 
service to qualify for an annuity. The occupational 
classifications for the age groups were changed in 1930. All 
previously granted exemptions were terminated by the so-called 
Economy Act of 1932, which also limited future exemptions to 
Presidential authorizations.
    The first major change to mandatory retirement occurred in 
1942. While a 1930 change in the retirement law had permitted 
individuals with 30 years of service to retire 2 years prior to 
the mandatory retirement age for their occupational 
classification, the 1942 Act for the first time established the 
concept of voluntary retirement at a much younger age, as early 
as age 55. At the same time, the mandatory retirement age was 
set at age 70 for all employees.
    With the exception of minor technical changes and special 
provisions applicable to limited groups, age 70 remained the 
uniform Federal mandatory retirement age for the next three 
decades. To be technically accurate, I must point out that 
certain employees of the legislative and judicial branches, 
Alaska Railroad, Panama Canal Company, and Canal Zone 
government were subject to different rules, but these 
exceptions were of limited applicability.
    In 1972, Public Law 92-297 brought back the concept of a 
separate mandatory retirement age for a specific occupational 
group, air traffic controllers, who were required to retire at 
age 56 with 20 years of service. In order to make this 
economically feasible, the law provided for a minimum annuity 
of 50 percent, the percentage that otherwise would have 
required 26 years and 11 months of service. However, any air 
traffic controller who worked for greater than that period 
would receive their normal annuity computed under the same 
formula applicable to employees generally. Coupled with 
enhanced annuity provisions, the law also added authority to 
set a maximum entry age to ensure that individuals would 
complete the service needed to retire on time.
    Three years later, Public Law 93-350 added a special 
mandatory retirement provision for two more occupational 
groups, this time law enforcement officers and fire fighters, 
who were required to retire at age 50 with 20 years of service. 
As with air traffic controllers, a maximum entry age was 
provided for. This time, however, the Congress chose to use a 
different mechanism to make early retirement economically 
feasible. Instead of a guaranteed minimum annuity, an enhanced 
annuity formula was provided. While other employees received 
36.25 percent of average salary for their first 20 years of 
service, these groups received 50 percent. Service in excess of 
20 years continued to be credited at the same rate as generally 
applicable.
    With subsequent minor variations, this concept of a higher 
computation rate for the first 20 years of service became the 
basis for all future extension of mandatory retirement to 
additional occupational groups.
    As an aside, it is important to understand that the 
retirement definition of law enforcement officer has a 
statutory meaning that is substantially more restrictive than 
the commonly understood concept of law enforcement officer. The 
main element of the definition is that the employee's duties 
must be primarily the investigation, apprehension, or detention 
of individuals suspected or convicted of offenses against the 
criminal laws of the United States. Groups that generally do 
not meet this definition today because they prevent or detect 
violations instead of investigating them include police 
officers, guards, and inspectors, including Customs inspectors 
and Immigration inspectors.
    In 1978, Public Law 95-256, the Age Discrimination in 
Employment Act Amendments of 1978, was enacted. This Act 
repealed the requirement of mandatory retirement for employees 
generally. From this time forward, only the special occupation 
groups remained subject to mandatory retirement.
    The Federal Employees Retirement System was established in 
1986. The new retirement system retained the same scheme for 
special occupational groups of a maximum entry age, enhanced 
annuity computation, and mandatory retirement. Also under FERS, 
air traffic controllers were brought under that scheme. Other 
laws added additional occupational groups, including Capitol 
Police, Supreme Court Police, and nuclear materials couriers. 
These groups are subject to the same general scheme as law 
enforcement officers and fire fighters.
    Minor changes were also made to the retirement age by 
various laws. At this time, air traffic controllers remain 
subject to mandatory retirement age at 56, while other groups 
subject to mandatory retirement must retire at age 57. In order 
to be subject to mandatory retirement, an employee must be 
eligible for retirement under the special provisions. An agency 
head may retain an employee who is in one of these special 
groups until age 60 or 61 for air traffic controller. That is 
at the agency head's discretion. A CSRS/FERS special group 
employee may be retained beyond age 60 or 61 with the 
permission of the President.
    As you are aware, director James recently transmitted an 
important in-depth report to the Congress on law enforcement 
classification pay and benefits. Among the matters considered 
in that report was the issue of mandatory retirement. That 
report was limited to the area of law enforcement. We have not 
performed a separate examination of these other special 
retirement groups with mandatory retirement in mind. However, 
many of the factors discussed in the report are applicable to 
the issue of mandatory retirement whether in the public or 
private sector.
    Before imposing, amending, or removing a mandatory 
retirement provision, an organization must first determine if 
such a change serves an organizational interest. In general, 
the special retirement provisions under the Federal systems for 
groups such as law enforcement officers, fire fighters, and air 
traffic controllers were intended to permit the government to 
maintain a younger workforce in these occupations through 
youthful career entry, continuous service, and early 
separation. This is because the duties of these occupations are 
so demanding that it is in the government's interest to 
maintain a younger workforce to ensure the effectiveness of 
that workforce.
    If it is determined that an occupation requires a younger 
workforce, mandatory retirement is only one means of achieving 
that goal for the Federal special group occupations. Several 
provisions work in combination to maintain a younger workforce 
in these occupations. These include a maximum entry age, 
voluntary early retirement with an enhanced annuity 
computation, and a mandatory retirement age. An organization 
could use one or more of these provisions or other means to 
help shape a more youthful workforce.
    In addition, enhanced retirement benefits under the Federal 
system were specifically established to permit an individual to 
retire voluntarily at an early age or at the mandatory 
retirement age with a sufficient annuity to make retirement 
viable. By ensuring a benefit commensurate with that of an 
employee who is not subject to mandatory retirement, the 
benefit package allows the Federal Government to remain 
competitive in hiring and retaining qualified employees. The 
imposition of a mandatory retirement provision should balance 
the public or private sector organization's need for a younger 
workforce in certain demanding occupations against the 
financial interests of employees working a shortened career.
    One of the most important issues discussed in OPM's report 
on law enforcement officers is the need for flexibility. The 
demands of work and average effective career length vary by 
occupation. A mandatory retirement age for one occupation is 
not necessarily the right mandatory retirement age for other 
groups. Mandatory retirement should take into account any 
unique requirements associated with the duties of any given 
occupation or even select groups within an occupation while 
also preventing the imposition of overly restrictive hiring 
barriers or forced retirements that unnecessarily constrain 
staffing options. For example, setting too low a mandatory 
retirement age for an occupation may result in the premature 
loss of an organization's most experienced personnel.
    Finally, ensuring that a workable process exists to 
determine if mandatory retirement is necessary or desirable and 
for setting mandatory retirement age is critical. The process 
that is ultimately established should facilitate an objective 
evaluation of the demands of a particular occupation and the 
establishment of the appropriate mandatory retirement age based 
on that evaluation. The process should be carefully crafted, 
because if it is flawed, there is the risk that mandatory 
retirement could operate to adversely affect an organization's 
ability to carry out its functions in an effective manner.
    In short, there is no simple rule of thumb that can be 
applied across the board in determining if a mandatory 
retirement provision should be imposed, and if so, at what age. 
However, we believe that establishing an effective process for 
making these determinations is achievable and is a necessary 
first step.
    In conclusion, Mr. Chairman, on behalf of director James, I 
thank you for inviting the Office of Personnel Management to 
testify on this matter and I will be glad to answer any of your 
questions.
    The Chairman. Abby, thank you very much.
    [The prepared statement of Ms. Block follows:]
    [GRAPHIC] [TIFF OMITTED] T7085.001
    
    [GRAPHIC] [TIFF OMITTED] T7085.002
    
    [GRAPHIC] [TIFF OMITTED] T7085.003
    
    [GRAPHIC] [TIFF OMITTED] T7085.004
    
    The Chairman. Now, let us turn to Mr. Freedman, policy 
counsel for the National Association of Air Traffic 
Controllers. Eugene.

 STATEMENT OF EUGENE R. FREEDMAN, POLICY COUNSEL, NATIONAL AIR 
        TRAFFIC CONTROLLERS ASSOCIATION, WASHINGTON, DC

    Mr. Freedman. Good morning, Mr. Chairman. Thank you for the 
opportunity to testify today.
    The United States air traffic control system is the safest 
and most efficient system in the world. However, we face a 
staffing crisis in the next few years and the only solution to 
that crisis is to hire more controllers. Congress has already 
directed the Federal Aviation Administration to develop a plan 
to grant waivers to the mandatory retirement age.
    Today's hearing asks the question, do the mandatory 
retirement rules still make sense? We believe that the 
mandatory age 56 requirement for our nation's air traffic 
controllers continues to make sense. Moreover, the granting of 
waivers or increasing of retirement age will not properly 
address the staffing crisis. Extending the retirement age is 
fraught with considerable problems of controller health, 
manpower distribution, and the general safety of America's 
flying public.
    More than three decades after Congress set the mandatory 
retirement age based upon initial studies of declining 
performance among older controllers, Congress has directed the 
FAA to allow controllers to work beyond the 56-year-old 
retirement age. However, studies as recent as 1998 and 1999 
warn of the same consequences as those initial studies. 
Controller performance peaks because of job experience between 
ages 38 and 45. However, despite increased experience, 
controllers' performance declines beyond age 45. Those declines 
become significant when controllers reach age 50, and the 
studies have shown that even the most experienced controllers 
over the age of 50 perform worse than controllers at the 
beginning of their careers.
    While NATCA welcomes further study on the subject, 30 years 
of studies have shown one consistent result: Changing the 
current mandatory retirement age is unwise.
    Air traffic controllers are not alone in their daily 
responsibilities. Rather, each individual is a critical element 
in a system based upon teamwork. The teamwork occurs both 
within and between airspace sectors. In many ways, the team can 
compensate for differences in the performance of team members. 
However, as with any network, there are limits to the amount 
some team members can compensate for others before it will 
cause consequences throughout the system.
    With the ever-increasing level of air traffic, individual 
controllers must remain efficient throughout their working 
careers. Sporadic hiring patterns in the FAA over the last 20 
years have resulted in a continuing increase in the average age 
of air traffic controllers. An increase in the mandatory 
retirement age will only further increase the average age, 
placing greater limitations on the ability of the team to meet 
the demands of the system.
    Recent NATCA studies on retirement patterns show that 
extending controllers' careers will not be enough to compensate 
for the huge pending employment loss. More importantly, decades 
of studies continue to warn that high stress levels and the 
resulting health complications from those high stress levels, 
along with declining cognitive abilities, make extending 
controllers' careers extremely dangerous.
    Flight traffic this summer is expected to surpass pre-
September 11 levels, and the Secretary of Transportation, 
Norman Mineta, has established a goal of increasing flight 
capacity threefold by 2010. Mr. Chairman, now is not the time 
to extend the retirement age and jeopardize the most 
productive, efficient system in the world. The safety of our 
flying public and the integrity of our entire system will 
depend upon a new generation of capable controllers, not the 
ability to hold on to the ones we already have.
    Our air traffic control workforce makes today's system a 
global standard of excellence. Extending the retirement age 
will tend to diminish that standard. Instead, we must make 
investments for the future and hire more controllers. The risks 
are simply too great to try dangerous shortcuts. Thank you.
    The Chairman. Thank you very much.
    [The prepared statement of Mr. Freedman follows:]
    [GRAPHIC] [TIFF OMITTED] T7085.005
    
    [GRAPHIC] [TIFF OMITTED] T7085.006
    
    [GRAPHIC] [TIFF OMITTED] T7085.007
    
    [GRAPHIC] [TIFF OMITTED] T7085.008
    
    [GRAPHIC] [TIFF OMITTED] T7085.009
    
    [GRAPHIC] [TIFF OMITTED] T7085.010
    
    [GRAPHIC] [TIFF OMITTED] T7085.011
    
    [GRAPHIC] [TIFF OMITTED] T7085.012
    
    [GRAPHIC] [TIFF OMITTED] T7085.013
    
    [GRAPHIC] [TIFF OMITTED] T7085.014
    
    [GRAPHIC] [TIFF OMITTED] T7085.015
    
    [GRAPHIC] [TIFF OMITTED] T7085.016
    
    [GRAPHIC] [TIFF OMITTED] T7085.017
    
    [GRAPHIC] [TIFF OMITTED] T7085.018
    
    [GRAPHIC] [TIFF OMITTED] T7085.019
    
    [GRAPHIC] [TIFF OMITTED] T7085.020
    
    [GRAPHIC] [TIFF OMITTED] T7085.021
    
    [GRAPHIC] [TIFF OMITTED] T7085.022
    
    The Chairman. Now, let us turn to Dr. Russell Rayman, 
executive director for the Aerospace Medical Association. 
Doctor?

   STATEMENT OF RUSSELL B. RAYMAN, M.D., EXECUTIVE DIRECTOR, 
         AEROSPACE MEDICAL ASSOCIATION, ALEXANDRIA, VA

    Dr. Rayman. Thank you, sir. It is my pleasure to be here to 
give testimony this morning.
    The Aerospace Medical Association appreciates the 
opportunity to submit this statement to the U.S. Senate Special 
Committee on Aging on the important issue of the age 60 rule 
for air transport pilots. I am Dr. Russell B. Rayman, executive 
director of the Aerospace Medical Association, representing 
approximately 3,300 physicians, scientists, and flight nurses 
engaged in the practice of aerospace medicine or related 
research.
    The age 60 rule implemented by the Federal Aviation 
Administration in 1959 does not allow persons engaged in 
operations conducted under Part 121 of the Federal Aviation 
Regulations to serve as a pilot or copilot on reaching their 
60th birthday. The rule was implemented under the premise that 
the risks of incapacitation due to a medical cause after 60 
years of age is unacceptably high. Despite a number of court 
challenges since 1959, the rule remains in force, yet still 
controversial.
    This issue of the age 60 rule can be reduced to three 
questions. After age 60, (1) will air transport pilots have a 
higher aircraft accident rate; (2), will there be significant 
performance decrement in the cockpit; (3), will there be an 
unacceptable risk of in-flight sudden incapacitation due to 
medical causes?
    To answer the first question with reasonable certitude, one 
would need to study a cohort of air transport pilots older than 
age 60 over a period of time and compare its flying safety 
record with a cohort of air transport pilots under age 60. 
Unfortunately, no such study exists because there are no over-
age 60 air transport pilots certified by the FAA to fly Part 
121 operations.
    The best we can do is to study general aviation and 
commercial pilots, both categories having no age limits. Many 
such studies have indeed been published in the medical 
literature focusing upon the relationship of age with aircraft 
accidents. A review of these studies reveals many 
contradictions and inconsistencies, making it impossible to 
extract data to support the age 60 rule or to refute it. In any 
event, the validity of these studies comes into question if one 
attempts to extrapolate the findings from general aviation 
pilots and commercial pilots to air transport pilots because of 
significant differences in aircraft and operations. In that 
alone, the studies are flawed.
    Many countries today do permit air transport pilots to 
continue flying beyond age 60. According to the International 
Civil Aviation Organization, at least 24 countries have adopted 
this more liberal policy, and to our knowledge, there has been 
no adverse effect upon flying safety.
    Regarding performance, many studies have been published 
comparing motor skills, cognition, memory, attentiveness, as 
well as simulator and flight performance between younger and 
older pilots, the results of which were frequently mixed. 
Furthermore, even when decrements were observed, there was no 
compelling evidence that they were significant enough to 
adversely affect flying safety.
    Although medical sudden incapacitation is always a 
possibility, I might add, at any age, we believe it is a 
vanishingly small risk, even for air transport pilots who would 
be over age 60, because the event would most likely have to 
occur during those few minutes of a critical phase of flight 
such as takeoff or landing. Even if there were such an 
occurrence, there is always a second pilot in the cockpit who 
could rapidly take control should the need arise. It might also 
be added that there has never been a U.S. air carrier accident 
due to medical causes.
    Let us assume for a moment that the rule was changed and 
air transport pilots were permitted to fly beyond age 60, 
perhaps to age 65. Are there medical tests that could be added 
to the biannual flight physical examination to detect cognitive 
decrements or medical conditions that could cause sudden 
incapacitation? There are some medical tests that could be 
added, but for the most part, there is not much enthusiasm 
because they are not adequately predictive. For example, many 
lack sensitivity and there is the risk of false positive 
results. A secondary factor is the cost to the airman. One 
exception, however, might be testing for changes in cognition. 
I would add that many countries which allow over-age 60 air 
transport pilots to fly do not require any additional testing.
    In conclusion, on review of existing evidence, the 
Aerospace Medical Association concludes there is insufficient 
medical evidence to suggest restriction of pilot certification 
based on age alone. Thank you.
    The Chairman. Doctor, thank you very much.
    [The prepared statement of Dr. Rayman follows:]
    [GRAPHIC] [TIFF OMITTED] T7085.023
    
    [GRAPHIC] [TIFF OMITTED] T7085.024
    
    [GRAPHIC] [TIFF OMITTED] T7085.025
    
    The Chairman. Now, we turn to Captain Eichelkraut, 
president of the Southwest Airlines Pilots' Association. 
Captain, welcome.

 STATEMENT OF CAPTAIN JOSEPH EICHELKRAUT, PRESIDENT, SOUTHWEST 
            AIRLINES PILOTS' ASSOCIATION, DALLAS, TX

    Capt. Eichelkraut. Chairman Craig, thank you for the 
opportunity to testify today and to present the views of the 
pilots of Southwest Airlines on the issue of mandatory 
retirement rules. I will keep my remarks brief and ask that my 
full written statement be entered into the record.
    Current FAA rules require pilots flying large commercial 
aircraft to retire by their 60th birthday. The 4,400-plus 
pilots of Southwest Airlines Pilots' Association, which I 
represent, oppose the age 60 rule and think the time for 
reevaluation is now. In fact, our membership had a referendum 
on the issue in 2003 and a clear majority of our pilots voted 
to reform the rule.
    The age 60 rule was made final on the basis of medical 
facts in 1959. What may have passed for medical facts then, 
today we know as age discrimination. The Equal Employment 
Opportunity Commission agrees and opposes the age 60 rule. 
Regardless of the FAA's intent in 1959, surely today a rule 
requiring the nation's most well-trained and experienced pilots 
to retire at age 60 does not appear to have any scientific or 
medical basis.
    Though I am not a doctor, I do know that pilots, along with 
the entire population, are living longer, healthier lives than 
when the age 60 rule was enacted 45 years ago. I believe that 
is one reason why Dr. Rayman from the Aerospace Medical 
Association is here today, as you just heard.
    Just look at our 41st President, George Bush. At 80 years 
young, he not only wants to fly in airplanes, he is jumping out 
of them. This summer, we were all thrilled when Spaceship One 
became the first manned commercial vehicle to slip the surly 
bonds of earth. The craft was flown by 63-year-old test pilot 
Mike Melvill, who did have a very physical challenge bringing 
that ship safely back to earth. However, the FAA maintains he 
is unfit to safely fly a Boeing 737 for my airline.
    Flying a commercial airliner is not physically demanding, 
but it does require management skills and sound judgment. These 
are talents that I have found come with age and experience.
    The FAA already has the ideal mechanisms in place for 
ensuring safe pilots at any age. For example, to retain my 
license and fly as a pilot for Southwest Airlines, I must pass 
semi-annual flight physicals administered by an FAA-licensed 
medical examiner, to include an annual EKG. As a captain, I 
must demonstrate in semi-annual check rides, complete knowledge 
of systems and procedures, safe piloting skills, and multi-
tasking in advance simulators. There is no greater test of 
cognitive ability and mental dexterity than these simulator 
rides. Simulator failure rates among Southwest Airlines pilots 
are low, but as the pilots approach age 60, they are at their 
lowest. Across all age groups last year, there were about 31 
failures out of 4,200 pilots.
    I am also administered random in-flight check rides by FAA 
inspectors and Southwest Airlines check airmen. The 59-year-old 
captain arrives at this point in his career having demonstrated 
successful performance following years of this kind of 
scrutiny. On top of all this, the FAA adds one final layer of 
safety, a fail-safe system which requires not one, but two 
highly trained pilots to fly on all Southwest Airlines flights.
    The sad truth is that every time an experienced pilot has 
to retire because of his or her 60th birthday, Southwest 
Airlines managers and the traveling public lose a seasoned 
pilot who is quite capable of safely working. Adding a few 
years to the career of the airline pilot is a win-win 
situation. It even benefits Social Security and pension funds.
    While many of the legacy carriers have historically offered 
rich defined benefit plans, Southwest and newer carriers have 
defined contributions, such as 401(k)s and profit sharing at 
Southwest Airlines. These are similar to most Americans' 
retirement benefits. If pilots could continue their careers 
beyond age 60, they could continue contributing to retirement 
accounts and postpone the withdrawal of pension funds, allowing 
airlines more time to replenish pension accounts.
    The airlines, the pilots, the traveling public, the 
taxpayer all benefit if we are allowed to fly additional years 
without sacrificing safety.
    Last year, the Senate came very close to ending the 
discriminatory age 60 rule with a vote on the Inhofe amendment 
to the FAA bill. The Southwest Airlines Pilots' Association 
strongly supported the amendment and is grateful to Senator 
Inhofe, Congressman Gibbons, and fellow pilots for all their 
hard work on this issue. I want to thank the Chair and the 
other 44 members who voted with Senator Inhofe to raise pilots' 
retirement age.
    The pilots of Southwest Airlines thank you for holding this 
hearing, which has shed some new light on this issue. Armed 
with this new information, I encourage the Chair and his 
colleagues in the Senate to hold another vote on the issue.
    Thank you, Mr. Chairman, for the opportunity to testify. I 
look forward to working in a bipartisan fashion to ensure a 
legislative solution to provide relief from this arbitrary 
rule.
    The Chairman. Captain, thank you very much. In the spirit 
of full disclosure, I voted for that Inhofe amendment.
    [The prepared statement of Capt. Eichelkraut follows:]
    [GRAPHIC] [TIFF OMITTED] T7085.026
    
    [GRAPHIC] [TIFF OMITTED] T7085.027
    
    [GRAPHIC] [TIFF OMITTED] T7085.028
    
    [GRAPHIC] [TIFF OMITTED] T7085.029
    
    The Chairman. Now, let us turn to our last panelist this 
morning, Dr. Jagadeesh Gokhale, senior fellow at the CATO 
Institute. Doctor, welcome.

 STATEMENT OF JAGADEESH GOKHALE, SENIOR FELLOW, CATO INSTITUTE

    Mr. Gokhale. Thank you, Mr. Chairman, for the opportunity 
to testify at this hearing.
    Mandatory retirement age rules have been eliminated in most 
private sector occupations as a result of the anti-age 
discrimination laws that were introduced beginning in the 
1960's. Were they allowed, private sector employers would 
likely use mandatory retirement age rules in employment 
contracts designed for ensuring worker efficiency in different 
occupations.
    Instead, private employers structure long-term incentive 
contracts and build in seniority rents in their compensation 
schedules, including features such as defined benefit pensions 
and other non-wage elements of compensation to achieve several 
objectives. These incentive contracts promote worker 
efficiency, they bond high-skilled workers to firms, because 
those who prematurely quit would lose their opportunity to 
collect seniority rents, and they also induce timely 
retirements.
    Retirement incentives incorporated in such long-term 
contracts appear to have spurred the trend toward early 
retirement in the United States. The recent surge in defined 
contribution plans has not totally eliminated defined benefit 
plans which incorporate such worker incentives, because both 
workers and employers find defined benefit plans to be useful 
in meeting these objectives.
    Mandatory retirement age rules still prevail in certain 
public sector occupations and these were introduced several 
decades ago, primarily to ensure the safe and effective conduct 
of these jobs. Under today's conditions, however, these 
retirement age rules appear to be becoming obsolete because 
they were instituted several decades ago. We need a revision of 
these rules simply because many of these occupations are facing 
impending worker shortages.
    In part, these worker shortages have been created by 
improving technology, which implies the need for a variety of 
skilled workers. New technology, although it has made the 
conduct of these jobs physically easier, has not proved to be 
labor-saving in nature. We need a highly skilled and a larger 
workforce to conduct these jobs efficiently.
    The health and longevity of the U.S. population has 
improved, which means competence in job performance may now 
extend to older ages than was the case several decades ago. 
Mandatory retirement age rules are increasingly unfair in some 
occupations where workers have non-transferrable skills, such 
as pilots and air traffic controllers.
    Now, experience in the U.S. academic institutions suggests 
that simply eliminating mandatory retirement age rules is not 
the solution because that may create its own problems such as 
making the workforce disproportionately old and reducing worker 
turnover. Instead, I would recommend a two-pronged approach. 
One is to raise the mandatory retirement ages in these 
occupations to meet with the short-term worker shortage that we 
are foreseeing and, second, adopt long-term incentive contracts 
for younger workers and new hires, thereby increasing worker 
efficiency and at the same time inducing timely retirements.
    If this two-pronged approach is adopted, we would see that 
the mandatory retirement age rules will automatically fall by 
the wayside because the new incentive contracting, if it is 
adopted appropriately, will ensure that employers will be able 
to implement timely retirements among workers. We need a more 
flexible system of retaining the most qualified workers, but 
also making sure that the work is conducted efficiently in 
these different occupations.
    However, before we make the policy reforms, we need to more 
closely investigate to what extent these private sector long-
term incentive contracts, if they are adopted in these 
different occupations, will be effective in achieving different 
objectives, both from the workers' and from the employers' 
perspectives.
    I would like to request that my written testimony be 
submitted into the record and I am happy to answer any 
questions you may have. Thank you very much.
    The Chairman. Doctor, thank you, and all of your full 
statements will be a part of the committee record.
    [The prepared statement of Mr. Gokhale follows:]
    [GRAPHIC] [TIFF OMITTED] T7085.030
    
    [GRAPHIC] [TIFF OMITTED] T7085.031
    
    [GRAPHIC] [TIFF OMITTED] T7085.032
    
    [GRAPHIC] [TIFF OMITTED] T7085.033
    
    [GRAPHIC] [TIFF OMITTED] T7085.034
    
    [GRAPHIC] [TIFF OMITTED] T7085.035
    
    [GRAPHIC] [TIFF OMITTED] T7085.036
    
    [GRAPHIC] [TIFF OMITTED] T7085.037
    
    [GRAPHIC] [TIFF OMITTED] T7085.038
    
    [GRAPHIC] [TIFF OMITTED] T7085.039
    
    [GRAPHIC] [TIFF OMITTED] T7085.040
    
    [GRAPHIC] [TIFF OMITTED] T7085.041
    
    The Chairman. Again, let me thank you all for your 
testimony this morning as we do build a record here in this 
committee for the purpose of other committees examining this 
issue as we arrive at having to deal with it, I think as 
Captain Eichelkraut mentioned, as these issues come up and the 
question of current policy is at hand.
    Abby, you mentioned reform and proposals at OPM. What are 
the principles OPM uses when thinking about reforming Federal 
mandatory retirement age rules?
    Ms. Block. Well, I think the primary principle that we have 
used is flexibility. What we are looking at is how to develop 
flexible systems that will help agencies to achieve their 
mission and at the same time be fair and equitable to the 
employees involved.
    The Chairman. You have just heard a proposal from Dr. 
Gokhale. Are those the kinds of examinations or approaches you 
look at, not only changes based on ability and performance, but 
also, obviously, I mean, we have to realize that once you 
establish an age, you drive retirement programs toward those 
ages, obviously to provide quality retirement. Is that a part 
of that examination, or the flexibility that was proposed here?
    Ms. Block. Yes. It is a very delicate balance because what 
you are looking at are multiple factors, such as the maximum 
entry age for an occupation, because if there is going to be a 
mandatory retirement age, you want to be sure that people can 
be employed long enough to at least achieve the minimum number 
of years necessary to get the kind of annuity that will be 
viable in their retirement years. You have to look at the 
specific demands of the occupation in terms of what are the 
physical and mental demands, and they are different for each 
occupation and need to be carefully evaluated.
    Then the retirement computation is really based on the 
concept of a shortened career, and that is why in certain 
occupations there is an enhanced retirement computation. There 
is no justification for that enhanced retirement computation if 
you are not dealing with a shortened career. There are pay 
implications, as well, that tie in.
    So you are looking at multiple factors in a very delicately 
balanced system to make sure that all the components work 
together to achieve the goal of, in our case, the agency and 
meeting the agency's mission.
    The Chairman. You talk about balance and factors involved. 
What are the standards used to ensure the issue, I think that 
Mr. Freedman has brought up, fitness in the performance, both 
in law enforcement and in the traffic controllers? It is an 
issue that I think all have expressed some concern about across 
the board, how it fits or doesn't fit. How is that concern or 
that standard factored into OPM's consideration?
    Ms. Block. The provisions that we act under are all 
statutory. We actually don't make those determinations. It is 
the Congress that makes those determinations. None of the 
provisions currently in place are administrative. They are all 
legislative.
    The Chairman. Thank you. I appreciate that.
    Mr. Freedman, you strongly caution Congress against 
directing the Federal Aviation Administration to allow age 
waivers that let controllers work beyond the mandatory 
retirement age. Is there any reason the FAA might want to 
consider exceptions to the mandatory retirement age rule?
    Mr. Freedman. Well, first, let me start out by saying, no, 
I don't think that there is any reason that FAA should consider 
exceptions. I think in the present case, the primary reason 
that FAA and Congress has directed FAA to consider exceptions 
is because of the staffing crisis that is looming on the 
horizon. The real answer to solving that problem is to hire new 
controllers. The costs of the older controllers would allow for 
the FAA, provided that the waivers were not granted, to hire at 
almost a three-to-one ratio of new controllers versus those 
leaving FAA service. So that, I think, is the best way to 
resolve the issue of the staffing crisis.
    The Chairman. I am not disagreeing with you as it relates 
to the stress level and the sensitivity of this particular 
concern and the performance of controllers in high-stress 
areas, but in balancing out a workforce, is it possible, I 
mean, under certain circumstances--there are a good many 
airports across the Nation that don't face the traffic of a 
Kennedy or an O'Hare or an Atlanta. Boise, ID, is probably a 
perfect example, and there are a lot of Boise, Idahos, across 
the country that are critical to aviation but don't have the 
stress loads of sheer volume and probably won't for a good 
number of years.
    Is there reason in this balancing that we are talking about 
and the need to hire substantially more, a reason to offer 
flexibility within certain areas, maybe in lesser-congested, 
lesser-stress environments? Is there any consideration or talk 
within your organization about that?
    Mr. Freedman. I think that the concern that that may create 
is discrimination among those who reach a certain age. If you 
are going to create different rules for those in different 
parts of the country, that creates an opening for 
discrimination. Then, also, it would be difficult to determine 
the specifics of which are the highest-stress environments.
    Just recently, I was at our national convention this past 
weekend and I spoke to Randy Brindley from the Cincinnati 
tower. He and I talked about his health problems. He is not yet 
50 years old; he turns 50 in March 2005 and will be eligible to 
retire at that time and plans to. Even though the Cincinnati 
tower may not be as high-stress an environment as the Kennedy 
tower that you talked about or various other places, he has 
been hospitalized in the past year for high blood pressure. He 
is required to take medication for that high blood pressure. He 
had to have surgery for diverticulitis, requiring 14 inches of 
his colon to be removed. He also is on diabetes medications. 
These are all related, according to his doctor, to the stress 
of his job. As controllers age, they have these various health 
conditions that they are subject to. Therefore, I don't think 
you can break it down geographically.
    The Chairman. The data in Figure 1 of your testimony 
suggests that cognitive ability begins to peak at age 30 and 
begins to decline at about age 45. Can you elaborate on this 
study and what it means for a mandatory retirement age rule?
    Mr. Freedman. The study that is referred to is the Air 
Traffic Control Specialists Age and Cognitive Test Performance 
Study authored by Dr. Michael Heil for the Civil Aeromedical 
Institute within FAA. That figure within my written testimony, 
along with the other figures, were based upon a study where 
over 1,000 air traffic controller were surveyed, were tested on 
various cognitive tests, and the results all indicated that 
cognitive abilities among air traffic controllers peaked 
between 38 and 45 and then decline begins. The decline becomes 
most severe after the age of 50.
    The study also considered computer-based performance as 
well as supervisor and peer review performance. Although that 
was published under a separate title, it is also referenced in 
my written testimony. That study revealed that performance 
also, not just cognitive ability, but performance declines 
after age 45, and very severely after age 50.
    The Chairman. Let me ask one more question and then I will 
turn to my colleague, Senator Carper, who has just joined us.
    You heard the airline captain talk about experience and the 
value of that as a pilot, and I am not in any way going to 
dispute the stress environment of a controller, but I also know 
that all people handle stress differently. Some cope with it 
very well and it is not a factor in their lives, or if it is, 
they handle it well. Is it possible that experience and 
judgment might compensate for loss of cognitive ability in the 
performance of a traffic air controller's job?
    Mr. Freedman. Actually, the data that we have seen 
indicates just the opposite.
    The Chairman. OK.
    Mr. Freedman. The experience does increase performance and 
ability through about age 45. But once that cognitive ability 
and the cumulative stress over many years of working in an air 
traffic environment, then performance begins to decline despite 
the increased experienced.
    There is a study I referenced by Becker and Milke in the 
Aviation, Space and Environmental Medicine Journal that 
basically states that older controllers with 13 or fewer years 
experience had higher mean ratings than those with more job 
experience. So it is the cumulative stress of the work over a 
period of years that affects controllers' performance.
    The Chairman. Thank you very much.
    I am pleased that we have been joined by one of our 
colleagues on this committee, Senator Tom Carper. Senator, do 
you have any opening comments or questions of this panel?
    Senator Carper. I do have something I would like to share 
with you.
    The Chairman. All right.
    Senator Carper. Not too long ago--do we have anybody here 
from Southwest Airlines?
    The Chairman. Right there.
    Senator Carper. One or two.
    The Chairman. Oh, just a few, yes.
    Senator Carper. Early this year, Southwest Airlines began 
operating flights out of Philadelphia to give us another option 
to fly. I may have flown on Southwest someplace along the line, 
I just don't recall, but I flew with them early this summer. I 
had always heard that some of the crew members have a sense of 
humor, but I had never experienced it myself.
    You know how you are sitting there, getting ready to strap 
in before the aircraft moves and how the attendants will give 
the announcements and that kind of thing? Sometimes they do it 
by recording, and in this particular instance, the--I don't 
know if you remember the film ``Deliverance,'' the banjo duet--
--
    The Chairman. Yes, of course. [Laughter.]
    Senator Carper. I think you know where I am going. We are 
sitting there kind of waiting for everybody to tell us to strap 
in and turn off our cell phones and over the PA comes a 
harmonica playing the theme song from ``Deliverance,'' a great 
harmonica player. It turned out it is the pilot of the 
aircraft. After he finished the song, you couldn't see him 
playing the harmonica, but he stepped--he was up in the front 
of the plane and he stepped out and played the very last few 
notes in full view of everybody, to great applause, I might 
add, and really broke things up.
    You asked the question about cognitive abilities and 
whether or not one's experience and judgment can overcome 
diminishing cognitive abilities. I don't know how that applies 
to harmonica playing, but putting a bunch of passengers at 
ease. It was quite a hilarious moment.
    It reminds me of one of my favorite TV commercials is the 
one for Holiday Inn where they have the guy in the nuclear 
power plant, in the control room of the nuclear power plant--do 
you remember that one?--and all the bells and whistles are 
going off and the place is in GQ, general alert. This one guy 
steps forward and he is eating his jelly filled doughnuts and 
he is saying, ``Turn this off, turn that on, turn this on,'' 
and finally everything calms down. The people who work there 
say, ``How did you know how to do this?'' He says, ``I am with 
the tour group out in the plant here. I did stay at a Holiday 
Inn last night.'' [Laughter.]
    I love that commercial. Having said all of that, I do have 
a serious question I wanted to ask the folks here and it 
relates to experience and to judgment.
    My grandfather died at the age of about 85. He had worked 
until he was 81. He was a butcher and he worked in my aunt and 
uncle's mom-and-pop supermarket.
    The Chairman. Did he die with ten fingers?
    Senator Carper. I tell you, he had Parkinson's disease 
really bad and his hands shook just like this. He would go to 
work every morning, drive himself through the hills of West 
Virginia to get to work, and you would walk into the 
supermarket and you would say, there is no way this guy is 
going to be a butcher, and you are sure he is going to lose a 
finger or a thumb or something today. But he hung it up at 81 
and never lost a single digit.
    I think of my grandfather. You look at a guy like this, 
there is no way he can do that job at the age of 81, but he did 
it pretty well and it was always, I think, regarded as a real 
loss when he finally stepped down.
    I spent some time in the Navy as a Naval flight officer and 
ended up getting to be a mission commander of a Navy P-3 
airplane. I don't know if we have any Navy guys or gals out in 
the--all right, good. Any P-3 people? At least one, good. ``The 
Hunt for Red October,'' that was what our job was.
    But a bunch of guys I used to fly with ended up flying with 
the airlines. They are sort of like me. They are not on the 
morning side of the mountain anymore, they are on the twilight 
side of the hill. They are past that age of 45, where the 
experience and judgment doesn't make up for our cognitive 
abilities, I guess.
    But let me ask, if I could. The question I want to ask all 
the panelists is this. Where do you agree? On a big panel like 
this, what I always look for is consensus on the issues that 
are before us, so think about that. Where do you agree? I am 
going to ask especially Captain Joseph Eichelkraut--did I get 
that right?
    Capt. Eichelkraut. Yes, sir.
    Senator Carper. Oh, good. Captain Eichelkraut, we have had 
before us in the past the opportunity to vote on legislation 
dealing with the mandatory retirement age. I think it is age 60 
for pilots. I would just be interested in your views on that 
particular issue. If you were in our shoes, how would you be 
voting and why? Then I am going to ask the entire panel just to 
tell me, where do you think you agree as a panel on the issue 
that is before us, mandatory retirement ages? But that specific 
issue for you, Captain.
    Capt. Eichelkraut. I am certainly glad to hear that the 
flight crew or the captain or the first officer, whoever it was 
playing the harmonica, put you at ease. It is one of our 
primary jobs, to make sure our passengers are relaxed and enjoy 
the flight and come back again.
    Senator Carper. I half expected the captain of the aircraft 
to say, ``Well, I am not really the captain of the plane, but I 
did spend last night in a Holiday Inn.'' [Laughter.]
    Capt. Eichelkraut. Which is probably where he learned how 
to play the harmonica, at the Holiday Inn. [Laughter.]
    Senator Carper. But he was really the captain, a great 
landing. A good take-off, too.
    Capt. Eichelkraut. We do a lot of those at Southwest 
Airlines, a lot of landings, a lot of take-offs, and they all 
equal each other, which is great.
    Senator Carper. That is good. We like for that to happen.
    Capt. Eichelkraut. The question you brought forward was, 
what do we agree on? I heard Abby Block say that a lot of it 
depends----
    Senator Carper. No, before you answer where you agree on, 
if you were in our shoes, what would be your position on 
mandatory retirement age for pilots at age 60?
    Capt. Eichelkraut. Well, if I were in your shoes, I would 
be looking at it to raise it, to eliminate it, to relieve it in 
some fashion, but to do it in a safety-conscious mode. I am 
here to tell you today that I wouldn't be here if I didn't 
believe honestly that we could do it safely beyond age 60.
    Senator Carper. Thank you.
    Capt. Eichelkraut. As a former safety officer in the Air 
Force, not the Navy----
    Senator Carper. What did you fly?
    Capt. Eichelkraut. F-16s. I know that the primary job of 
every flight crew officer is the safety of that aircraft and 
those passengers. If there was any doubt in our minds that 
flying past age 60 was going to be a problem for any of us, 
that is our brothers out there and we make sure that doesn't 
happen. So that is one avenue that, from our standpoint, from 
professionalism, we exhibit.
    It is an internally controlled thing, and if there are 
individuals who--we have individuals who get sick. I heard 
people talk about high blood pressure. I will tell you right 
now, I find flying very relaxing. I find the board room very 
stressful, and I think that sitting in the board room has 
caused me more stress than the flying over the past several 
years, just being the chairman of the Board of Directors of 
Southwest Pilots' Association, but I would approach it with 
caution.
    Senator Carper. Now, if you go to my other question, and 
that is where do you see consensus from this panel, and feel 
free to go ahead and proceed.
    Capt. Eichelkraut. The consensus I see is that a lot of it 
depends on the particular job. For instance, I just expressed 
the fact that I think many pilots, if not all pilots, find 
flying relaxing. On the other side, you talk about, or there 
has been mention that the cognitive ability starts to decline 
after 45 or 50, I am not sure which it is. I guess I am there.
    But my point is, in our job, experience is the maker of the 
day. So it depends on the career activity, how much stress it 
is creating while you are doing that job. But I can honestly 
say that flying an airliner today is not that stressful an 
environment. There are other, more stressful things. Maybe that 
is just because that is something I enjoy and love. But that is 
one option.
    But we have a couple examples in history here that has 
shown us where experience and the age of the captain in this 
case--in two cases, actually came to the day, and one was the 
Sioux City United Flight 232. That aircraft lost all hydraulics 
after the tail engine cut the lines and that plane was not 
supposed to be able to land on a runway, and yet the experience 
in that cockpit was able to land, at least get it to the 
runway. Although there were some deaths involved, they saved 
185 people on that flight in a situation that was not supposed 
to happen. That captain was able to do that, I believe through 
experience, and he had to retire 6 months later and take that 
experience with him.
    We have another example in a 747 taking off out of Hawaii 
going to the Western part of the Pacific. It lost a cargo door 
at altitude, took out two right engines on the right side. The 
captain, within 4 weeks of retirement, overrode the checklist 
and said, ``You know, if we do the checklist right now where it 
says to put the gear down, we are not going to make it back.'' 
So, I mean, these are kind of judgments that come through 
experience, and 4 weeks later, he was no longer flying because 
of this rule. I dare say that he had a lot of experience to 
take forward with him for many years.
    Senator Carper. OK. Let me hear from others on the panel. I 
want to try to say your name, sir. Jagadeesh Gokhale?
    Mr. Gokhale. Gokhale.
    Senator Carper. Please.
    Mr. Gokhale. Sure.
    Senator Carper. Where do you see consensus among the panel?
    Mr. Gokhale. I agree with Captain Eichelkraut's comments, 
actually. I think it depends on the job. For some jobs, for 
example, police officers, certainly there is a lot of stress 
and the job is physically demanding. Nevertheless, there have 
been technological improvements over the past several decades 
that reduce the physical exertion and make the conduct of the 
job safer. Officers have better body armor. They have better 
communications equipment. They have faster cars. There have 
been technological improvements that facilitate the conduct of 
these jobs in a safer and more efficient manner.
    Of course, it varies from occupation to occupation, but 
statistics indicate that the health of the U.S. population has 
been increasing. People are living longer. In the age group of 
55 to 65, mortality rates, for example, which is an indicator 
of health, for both men and women have declined between 30 and 
40 percent over the last four decades. There is research that 
suggests that----
    Senator Carper. Dr. Gokhale, what has declined by 30 or 40 
percent?
    Mr. Gokhale. Mortality rates for 55- to 65-year-old men and 
women have declined----
    Senator Carper. That is encouraging as I look toward my 
58th birthday, Mr. Chairman. [Laughter.]
    The Chairman. I won't discuss what happened to me in July 
of this year. [Laughter.]
    Mr. Gokhale. There is evidence from surveys that ask 
questions about the respondents' health. These are self-
reported data, and again, respondents in this age range report 
being in good or better condition with greater frequency today 
than they did even 20 years ago. If you extrapolated that by 
another 20 years, which is when these mandatory retirement ages 
were instituted, the improvement in quality of life and health 
would be even more significant.
    Finally, there is some evidence that compared to a few 
decades ago, health issues are less relevant for retirement 
decisions across the population because of better technology 
making the conduct of jobs less stressful and less physically 
taxing, as well as better health care and medical technology, 
which has enabled us to deal with and treat chronic conditions 
better so that people can continue in these jobs despite having 
high blood pressure and being able to deal with high stress 
situations because of better medication. So I just offer that 
as my responses to your question.
    Senator Carper. Good. Thanks. Are there other members? Dr. 
Rayman?
    Dr. Rayman. Yes, sir.
    Senator Carper. Do you pronounce your last name Rayman?
    Dr. Rayman. Yes, thanks to Ellis Island, my grandparents. 
[Laughter.]
    Senator Carper. But not like ``Everybody Loves Raymond.'' 
All right. Well, maybe they do, I don't----
    Dr. Rayman. I just wish it were true, sir. [Laughter.]
    Regarding consensus, with some exceptions, I think there is 
a general trend in our sentiment toward more liberalization of 
mandatory retirement ages in general. Regarding pilots, that is 
the group I addressed in my testimony, I believe that we could 
certainly be more liberal and open doors a bit, perhaps to age 
63 or age 65 for air transport pilots, and they could be 
followed quite easily, including their safety records and their 
health and so forth. If after three to 5 years you find that 
they are doing well or as good as the younger pilots, then you 
could open it up to everybody or possibly even extend it beyond 
age 65 some day.
    So I would be in favor of extending it. I don't think that 
something magical happens when you wake up in the morning of 
your 60th birthday that disqualifies you.
    Senator Carper. Mr. Freedman.
    Mr. Freedman. Well, I think to answer the first part of 
your question, NATCA's position is that the age 56 retirement 
age should be maintained, and so on the second part of the 
question, I think that the panel has really agreed that in 
safety-related professions, there should be some caution. I 
think the age is where we differ in our opinion, whether there 
should be a strict age or whether it should be just open on an 
individual by individual basis.
    But for air traffic controllers, the age 56 mandatory 
retirement has really been backed up by studies over the past 
35 years. I don't think that some of the issues that were 
raised in terms of technology have lessened the stress levels. 
Furthermore, the FAA prohibits controllers from working the 
boards if they are taking certain over-the-counter, much less 
prescription, medications. So even though there are advances in 
medication to treat physical problems, whether they be 
allergies or something else, those medications preclude 
controllers from working traffic. So that doesn't really apply 
in the area of air traffic control.
    Senator Carper. Ms. Block, the last word.
    Ms. Block. The last word. Well, the administration has not 
taken any position on mandatory retirement age in general. We 
are looking currently at a very specific and limited group, the 
law enforcement officer group, and we are in the midst of 
looking very carefully at that group.
    But the consensus that I have heard, and I think I have 
heard a fairly clear consensus within the panel, is that there 
really is no single rule of thumb, that you need to look at 
every job and every situation individually, that the 
requirements are different and that you need to do a careful 
analysis and flexibility is important.
    Senator Carper. Good point. Mr. Chairman, do you remember 
back in 1983 when we were just pups in the House of 
Representatives?
    The Chairman. Yes. An interesting description, but I do 
remember it. [Laughter.]
    Senator Carper. The Social Security Trust Fund was in dire 
straits.
    The Chairman. That is right. Two Irishmen wrestled 
themselves to the floor on that one, as I recall.
    Senator Carper. That is right. In the end, among the things 
that we did, we began to gradually increase the full retirement 
age.
    The Chairman. Right.
    Senator Carper. I think when we did it, it seems like we 
raised it by a month, 1 month per year.
    The Chairman. I believe that is right.
    Senator Carper. In fact, I think we are going through that 
process right now. Each year, we raise the full retirement age 
by 1 month. It just was able to provide some consensus for 
Congress a long time ago. Maybe as we face these issues in the 
future, it will provide some value.
    Well, this has been fun and informative.
    The Chairman. Tom, I thank you for your questioning, and 
out of that expression of consensus that I think we share about 
looking at different occupations with some degree of 
difference, let me go back to a medical doctor, then, Dr. 
Rayman, and ask this of you.
    In doing so, if we obviously move in that direction with 
all of the statistical evidence that we now know, that we stand 
to live a good deal longer than our parents or grandparents and 
we will live healthier during that period of time, and let us 
say in the coming years we decide to extend outward for airline 
pilots the time in which there might be a mandatory retirement, 
how do we get at the business, then, of making sure from a 
given age forward that these people are capable of performing 
those tasks? Certainly, there is an individual effort inside 
different organizations, airlines, tests and simulator tests 
and all of that and physicals, but does the current physical 
exam required build the necessary record and evidence to 
continue that person in a safe and successful profession?
    Dr. Rayman. In this country, I believe the current physical 
examination mandated by the FAA is adequate. I think it is 
adequate for individuals below age 60 and I think it would be 
adequate for individuals above age 60. If you ask me where I 
draw the line, it becomes very fuzzy. But I would personally 
feel comfortable with this exam up to age, as I said, 63 to 65.
    Now, if you have to have absolute hard science in making a 
decision on age retirement for pilots, it would be very, very 
difficult. You would have to contrive a number of studies. You 
would have to, for example, prove that an aging pilot has a 
decrement, for example, in cognition and that that decrement 
adversely affects performance in the cockpit. You would have to 
do all of that. I think that would be very difficult, and 
likewise with medical causes of incapacitation. You would have 
to demonstrate that the older pilots are becoming incapacitated 
at a greater rate than the younger pilots and this would have 
to be done by a prospective study. That might be a little 
easier to do.
    The Chairman. Captain Eichelkraut, not every airline pilot 
union shares your view on changing the 60 age rule. As you 
know, in that last discussion that the Congress had, there was 
a fair amount of push and shove on that issue from different 
unions. Why is that the case?
    Capt. Eichelkraut. Well, it may be a combination of 
factors. I don't know that, honestly, that some of the other 
unions have actually queried their members recently. I know 
that in the past----
    The Chairman. And you have?
    Capt. Eichelkraut. We have. Last year, in 2003, we had a 
whole referendum and a very high percentage of vote turnout and 
a very favorable vote of pursuing relief of this particular 
rule for our pilots.
    So I don't know that the statement really is true today. It 
might also have to do with some of the designed pension plans 
of some of the other carriers. Like I specified, our particular 
one is a defined contribution, so the longer we work, the more 
we contribute to our own future and our own retirement and less 
of a burden on the taxpayer, et cetera. Some of the pension 
plans under the current legacy carriers are under a great deal 
of stress today, as we are all aware, and----
    The Chairman. So you are suggesting it may not be a factor 
of performance, it may be a factor of purely financial----
    Capt. Eichelkraut. I don't know that. It could be that way. 
I don't know that they have honestly been asked recently, a lot 
of the other carriers. I know there are some pilots from other 
carriers who have approached me and said, ``What are you guys 
doing on it? We would like to maybe follow suit.'' But I don't 
have any hard numbers.
    The Chairman. Dr. Gokhale, what are the market implications 
of reversing mandatory retirement age rules and what would 
happen?
    Mr. Gokhale. Again, as Capt. Eichelkraut mentioned, there 
are considerable incentives for workers in these professions 
and occupations that are subject to mandatory retirement age 
rules to have these retirement rules extended to higher ages. 
Some of the incentive stem from the desire is to do better 
financially because of the structure of their pension plans. 
Some of them may have defined contribution plans, and therefore 
working longer and being able to contribute for a longer time 
would imply a better life in retirement.
    Having to retire earlier than normal, say at age 60, when 
workers still have some years of competence left but just 
cannot work presents a difficult challenge. There is evidence 
that suggests that middle-aged and older workers who are 
terminated from their jobs prematurely find it more difficult 
to find reemployment, and when they do find reemployment, they 
have to take larger pay cuts. So employment opportunities for 
workers who are terminated at age 60, let us say, are very few 
especially so for those who have non-transferable skills.
    Now, experience from the academic institutions in the U.S., 
which eliminated the age 70 mandatory retirement age in 1994, 
suggests that people will not retire at such high rates if 
mandatory retirement age rules are eliminated. In the 
universities, once the age 70 rule was eliminated, retirement 
rates among age 70 and 71 faculty declined from 90 percent to 
50 percent, which meant that faculties are aging and worker 
turnover in these institutions has declined. So eliminating 
existing retirement age rules in the professions being 
considered could result in a disproportionately larger 
workforce consisting of older individuals.
    So I don't think completely eliminating mandatory 
retirement age rules in the short term is desirable, but given 
the other evidence on the longevity and health of this 
population these rules appear in need of a revision.
    The Chairman. Is there any other comment that any one of 
you would like to make before we adjourn this hearing? Yes, 
please.
    Mr. Freedman. To speak about what the Captain said 
regarding polling of membership, NATCA did conduct a survey of 
our membership on the issue of retirement and waivers, and 75 
percent of our members have stated that they would not accept a 
waiver if granted. Furthermore, of the group that would stay, 
nearly 90 percent of that group plans to stay in a different 
job within FAA and transfer to a different line of business 
than actually working air traffic prior to the age 56 mandatory 
retirement. So I don't think that it impacts the air traffic 
industry similarly to the airline pilots.
    The Chairman. You are suggesting that 25 percent wouldn't 
take retirement, they would look for another job within FAA?
    Mr. Freedman. Yes.
    The Chairman. I see. So they would continue to work within 
a similar structure, but not control. OK. Anyone else? Yes?
    Capt. Eichelkraut. Sir, I have a comment. I would like to 
reiterate that not only do the pilots of our company believe 
that relief for the age 60 rule should be reviewed, so does our 
management. Our management is strongly behind us. In fact, Herb 
Kelleher, who is a popular name and figure in our company, 
fully supports the pilots' views, as did the former CEO. So 
there is a lot of support from the management side on this 
issue, also.
    The Chairman. Yes, Doctor?
    Mr. Gokhale. Well, evidence from the private sector 
suggests employers are able to achieve timely retirements among 
their workforce through the use of long-term incentive 
contracts. I think these types of contracts should be seriously 
considered as a long-term reform for these occupations. Current 
mandatory retirement age rules have a lot of inflexibility 
built into them; they tend to be retained for a long time--we 
have already had these rules in place for 40 years and they 
seem to be obsolete now for a lot of good reasons. For the 
long-term, if we adopt these type of incentive plans that 
achieve timely retirements, we could build in more flexibility 
in retirement decisions--good for the employers and for the 
employees.
    The Chairman. Anyone else? If not, let me thank you all 
very much for your time and your testimony as we build this 
record. This is an issue that I think Congress will face in the 
near future. As I think you have clearly expressed, it is not a 
singly faceted issue of simply adjusting age. A lot of things 
follow as a result of that, as it relates to conditions of 
employment and, as you have mentioned, retirement, physical 
examination, other kinds of tests, and especially in the areas 
where safety is critical and the performance of the individual 
certainly enhances or detracts from the safety of the public 
involved, that is important. I think we all understand that.
    Thank you again very much, and the committee will stand 
adjourned.
    [Whereupon, at 11:18 a.m., the committee was adjourned.]

                            A P P E N D I X

                              ----------                              


              Prepared Statement of Senator Elizabeth Dole

    Over forty years ago the Federal Aviation Administration 
enacted the ``Age 60'' rule, which demanded that all pilots 
retire by their 60th birthday. Initially, the FAA's intentions 
were well-founded under the guise of safety. It was simply an 
effort to protect the millions of men and women who fly 
commercially every year. The FAA was concerned by the medical 
facts citing the onset of cognitive decline by the age of 60 
along with physical deterioration that physicians believed 
could affect pilots' ability to fly safely. But than was then. 
Today we live in a world where medical technology has helped to 
prolong our lifespan and serve as a modern day fountain of 
youth.
    Even the National Institute on Aging of the National 
Institutes of Health has reported to Congress that the age of 
60 is not an age of ``particular significance'' in piloting. 
This report isn't new--it dates as far back as 1981.
    The ``medical facts'' once cited in the research that led 
to the Age 60 rule are no longer serve as valid data, and the 
time has come to reevaluate requiring pilots to retire at such 
an early age. In fact, the Equal Opportunity Employment 
Commission (EEOC) believes the Age 60 rule qualifies as age 
discrimination. Such requirement apply an unequal standard 
between pilots over the age of 59 and those who are younger. 
Therefore, mandatory retirement violates the Age Discrimination 
in Employment Act of 1968. The FAA is not alone in this 
violation. In fact, the EEOC has led the charge in encouraging 
several other organizations to eliminate similar compulsory 
retirement clauses.
    I am familiar with the studies regarding the decline of 
mental and psychical aptitudes of older employees. It is a 
subject I know well from the tenure with the Department of 
Labor. But in the time that has passed since I was the 
Secretary of Labor, we have seen tremendous leaps in technology 
that will afford those who are 60 and beyond the ability to 
live their lives in a longer, healthier fashion.
    How can we provide that a pilot, or any professional, 
suffers from cognitive decline only at the age of 60? In order 
to be certain, we would have to complete several far reaching 
studies that may or may not yield successful results. However, 
we do know that current airlines' tests effectively evaluate 
their younger pilots' abilities. Twice a year, pilots are must 
take FAA-administered tests in order to retain their licenses. 
At Southwest Airlines, as with many others, pilots aged 40 and 
older are required to undergo an EKG every other flight 
physical. Pilots must also pass semiannual simulator training 
and flight checks. Such exams are designed to assess pilots' 
responses in emergencies as well as their adjustment to the 
ever changing technologies of commercial flight. Every pilot's 
aptitude, no matter what their age, is closely monitored.
    Moveover, the benefits in allowing pilots to remain 
employed past the age of 60 are far reaching. In fact, as 
Americans, we all stand to profit from long-term captains of 
commercial flights. First, the most obvious, the older a pilot, 
the more experience. The knowledge and skilled judgment that 
comes with piloting large aircrafts greatly increases with age. 
Secondly, there are the economic benefits. Today's airline 
economy is not what it was before September 11, 2001. Many 
companies have had to cut back on their pilots' pensions. By 
allowing employee to remain in flight past the age of 60, 
airlines stand to save significant amounts by prolonging the 
time before a retiring pilot dips into his or her pension.
    The time has come, Mr. Chairman, to reassess the validity 
of mandatory retirement for pilots turning 60. There simply is 
no rationale for grounding healthy, capable flight engineers 
simply because they are fortunate enough to reach their 60th 
birthday.
                                ------                                


               Testimony of U.S. Congressman Jim Gibbons

    Mr. Chairman, I would like to thank you and Ranking Member 
Breaux for inviting me to offer testimony before the Special 
Committee today regarding the very important issue of mandatory 
retirements.
    While I understand the Committee is addressing this issue 
as it affects a variety of industries, I would like to take my 
time today to address mandatory retirements in one key sector 
of our economy, namely: our nation's commercial airline 
industry.
    As a seventeen-year veteran of the commercial airline 
industry approaching my own sixtieth birthday, this issue is 
undoubtedly a personal one for me.
    One of my top legislative priorities in Congress has long 
been to overturn the outdated, unnecessary, and discriminatory 
Federal Aviation Administration ``Age 60 Rule'', and see the 
mandatory retirement age for pilots increased from 60 to 65.
    Further, at a time when our nation's airline industry is 
struggling to remain financially solvent and secure, the Age 60 
Rule is an issue that affects all Americans, not just pilots.
    Before I discuss the possible economic rationale for 
overturning the Age 60 Rule, I will address the basic and most 
fundamental flaw of the Rule: the fact that the Rule is not 
based on sound science, public safety or medical facts.
    The current FAA regulation that requires all commercial 
airline pilots to retire the day they turn 60 years old is 
blatant age discrimination and nothing more.
    The Age 60 Rule is a nearly 50 year-old political ploy 
originally designed to relieve one airline from its woes 
resulting from a labor dispute.
    The history of the Age 60 Rule is well-documented and I 
will not waste the Committee's time delving any further into 
the specifics, yet it is monumentally important to note that 
the Rule was founded not out of a concern for public safety, 
but as a ``quick-fix'' to a labor dispute and that continued 
reference to a ``concern for public safety'' as a legitimate 
reason for maintaining the Age 60 Rule is baseless.
    There is no hard evidence that individuals, after their 
60th birthday, become universally incapable of handling the 
same important tasks they did at age 59 and 364 days.
    Numerous scientific reports show that a pilot's capacity 
for safely operating a commercial jetliner increases after age 
60.
    For example, in 1999, FAA flight safety data published in 
the Chicago Tribune revealed that airline pilots aged 60 and 
older, who are engaged entirely in less-safe Part 135 commuter 
operations, had the lowest incident rate of any group except 
for those pilots age 20-24.
    Another study, presented by a group of scientists led by GW 
Rebok to the American Psychological Association in 1999, 
demonstrated that in general aviation crashes involving pilots 
aged 40-63, the percentage of accidents caused by pilot error 
was smaller in the age group 56-63.
    The list of studies that conclude in favor of older pilots 
to younger ones goes on and on, and I will leave it to today's 
medical expert witnesses to address more of the specifics of 
similar studies, in their professional opinion.
    However, I believe the one fact far more convincing than 
all of the study results combined is that all pilots, from age 
16 on, have to pass serious physical exams twice a year, in 
addition to annual flight physicals.
    The rigorous physical examination requirements mandated by 
the FAA should be enough evidence alone that age should not be 
the sole determinant of an individual's capacity to fly a 
commercial airliner.
    If a 64.5 year old individual can out-perform a 56 year old 
individual on a flight physical, the 64 year-old should be 
allowed to continue to fly until 65.
    The FAA's current Age 60 Rule is blatant age discrimination 
and should be overturned.
    Earlier in my statement, I alluded to the fact that 
overturning the Age 60 Rule may also prove an economic benefit 
to our nation's struggling airline industry.
    Everyday, we hear new information regarding the financial 
straits of many of our nation's airliners, and many of these 
woes stem directly from the status of their defined benefit 
pension plans.
    For example, on September 9, Delta Airlines announced its 
plans to eliminate over seven thousand jobs, cut employees' 
wages, and do away with its Dallas hub, in part as a result of 
their strong concern over the future of their pilots' pensions.
    Just Sunday, US Airways filed for Chapter 11 Bankruptcy for 
the second time in two years--also citing troubles with their 
pension plans.
    Now, if Congress were to raise the mandatory retirement age 
for commercial airline pilots from 60 to 65, we would allow 
thousands of experienced, senior pilots to continue to fly 
while also continuing to pay into their pensions and into 
Social Security as opposed to being forced into early 
retirement only to begin collecting from a quickly dwindling 
pool of pension cash.
    Finally, I firmly believe that it is a grave mistake to 
force our most experienced pilots into early retirement when 
they should be serving as the industry's leading experts on 
operating procedures and emergency responders.
    Through my seventeen years as a commercial airline pilot, I 
can confidently attest to the fact the with experience comes 
enhanced skills and increased knowledge on how to react to 
stressful situations under pressure.
    At a time when the federal government is dedicating 
billions of taxpayer dollars to the goal of increasing security 
for the nation's traveling public, it seems tremendously 
counter-intuitive to force into early retirement the most 
experienced pilots who will be, in essence, the first 
responders in the sky.
    In an effort to promote safer skies for all Americans, I 
would strongly recommend that my colleagues support this 
amendment.
    For all of the above reasons, I continue to advocate for 
passage of H.R. 1063, legislation I have introduced over the 
past three Congresses, to increase the mandatory retirement age 
for commercial airline pilots from 60 to 65.
    Although the 108th Congress is quickly coming to a close, I 
fully intend to re-introduce similar legislation once again 
early of the 109th Congress.
    I look forward to continuing to work with Senator Inhofe on 
this important issue, and also with the thousands of 
hardworking airline pilots who also support increasing the 
retirement age for the benefit of the entire nation.
    Working together we can ensure the FAA ends its policy of 
age discrimination against pilots and abolish the antiquated 
Age 60 Rule, once and for all.
[GRAPHIC] [TIFF OMITTED] T7085.042

[GRAPHIC] [TIFF OMITTED] T7085.043

[GRAPHIC] [TIFF OMITTED] T7085.044

[GRAPHIC] [TIFF OMITTED] T7085.045

[GRAPHIC] [TIFF OMITTED] T7085.046

[GRAPHIC] [TIFF OMITTED] T7085.047

[GRAPHIC] [TIFF OMITTED] T7085.048

[GRAPHIC] [TIFF OMITTED] T7085.049

[GRAPHIC] [TIFF OMITTED] T7085.050

[GRAPHIC] [TIFF OMITTED] T7085.051

[GRAPHIC] [TIFF OMITTED] T7085.052

[GRAPHIC] [TIFF OMITTED] T7085.053

[GRAPHIC] [TIFF OMITTED] T7085.054

[GRAPHIC] [TIFF OMITTED] T7085.055

[GRAPHIC] [TIFF OMITTED] T7085.056

[GRAPHIC] [TIFF OMITTED] T7085.057

                                 <all>

</pre></body></html>
